                        Department of the Interior
                        Office of Inspector General



          AUDIT REPORT



                U.S. Fish and Wildlife Service
        Wildlife and Sport Fish Restoration Program
          Grants Awarded to the State of Vermont,
                Agency of Natural Resources,
               Fish and Wildlife Department,
         From July 1, 2004 Through June 30, 2006




Report No. R-GR-FWS-0013-2007                 June 2008
                United States Department of the Interior
                             OFFICE OF INSPECTOR GENERAL
                               12030 Sunrise Valley Drive, Suite 230
                                      Reston, Virginia 20191
                                                                                     June 3, 2008

                                    AUDIT REPORT

Memorandum

To:            Director
               U.S. Fish and Wildlife Service

From:          Christina M. Bruner
               Regional Manager, Eastern Region

Subject:       Audit on U.S. Fish and Wildlife Service Wildlife and Sport Fish Restoration
               Program Grants Awarded to the State of Vermont, Agency of Natural Resources,
               Fish and Wildlife Department, From July 1, 2004 Through June 30, 2006
               (No. R-GR-FWS-0013-2007)

        This report presents the results of our audit of costs incurred by the State of Vermont
(State), Agency of Natural Resources (Agency), Fish and Wildlife Department (Department),
under grants awarded by the U.S. Fish and Wildlife Service (FWS). FWS provided the grants to
the State under the Wildlife and Sport Fish Restoration Program (the Program). The audit
included claims totaling approximately $13.8 million on 46 grants that were open during State
fiscal years (SFYs) ended June 30 of 2005 and 2006 (see Appendix 1). The audit also covered
Department compliance with applicable laws, regulations, and FWS guidelines, including those
related to the collection and use of hunting and fishing license revenues and the reporting of
program income.

        We found that the Department complied, in general, with applicable grant accounting and
regulatory requirements. However, we questioned costs totaling $8,809 for undocumented
expenses. We also indentified problems with duplicate expenses, controls over equipment, and
assent legislation. Finally, we identified a potential problem with the use of license revenue
funds.

        We provided a draft report to FWS and the Department for a response. We summarized
Department and FWS Region 5 responses after each recommendation, as well as our comments
on the responses. FWS stated they would consider the Department’s comments in their
corrective action plan. We list the status of each recommendation in Appendix 3.

        Please respond in writing to the findings and recommendations included in this report by
September 2, 2008. Your response should include information on actions taken or planned,
targeted completion dates, and titles of officials responsible for implementation.

       If you have any questions regarding this report, please contact the audit team leader, Mr.
W. S. Streifel, or me at 703–487–5345.

cc:   Regional Director, Region 5, U.S. Fish and Wildlife Service
                                                     Introduction

Background

The Pittman-Robertson Wildlife Restoration Act and the Dingell-Johnson Sport Fish Restoration
Act (Acts)1 established the Wildlife and Sport Fish Restoration Program. Under the Program,
FWS provides grants to States to restore, conserve, manage, and enhance their sport fish and
wildlife resources. The Acts and federal regulations contain provisions and principles on eligible
costs and allow FWS to reimburse States up to 75 percent of the eligible costs incurred under the
grants. The Acts also require that hunting and fishing license revenues be used only for the
administration of the State’s fish and game agency. Finally, federal regulations and FWS
guidance require States to account for any income they earn using grant funds.

Objectives

Our audit objectives were to determine if the Department:

       •    claimed the costs incurred under the Program grants in accordance with the Acts and
            related regulations, FWS guidelines, and the grant agreements;

       •    used State hunting and fishing license revenues solely for fish and wildlife program
            activities; and

       •    reported and used program income in accordance with federal regulations.

Scope

Audit work included claims totaling approximately $13.8 million on the 46 grants that were
open during SFYs 2005 and 2006 (see Appendix 1). We report only on those conditions that
existed during this audit period. We performed our audit at Department headquarters in
Waterbury, VT, and visited 5 fish culture stations, 7 wildlife management areas, 5 district
offices, and 21 boating access ramps (see Appendix 2). We performed this audit to supplement,
not replace, the audits required by the Single Audit Act Amendment of 1996 and by Office of
Management and Budget Circular A-133.

Methodology

We performed our audit in accordance with the “Government Auditing Standards” issued by the
Comptroller General of the United States. Those standards require that we plan and perform the
audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our findings and
conclusions based on our audit objectives. We tested records and conducted auditing procedures
1
    16 U.S.C. §§ 669 and 777, as amended, respectively.


                                                          2
as necessary under the circumstances. We believe that the evidence obtained from our tests and
procedures provides a reasonable basis for our findings and conclusions based on our audit
objectives.

Our tests and procedures included:

   •   examining the evidence that supports selected expenditures charged to the grants by the
       Department;

   •   reviewing transactions related to purchases, direct costs, drawdowns of reimbursements,
       in-kind contributions, and program income;

   •   interviewing Department employees to ensure that personnel costs charged to the grants
       were supportable;

   •   conducting site visits to inspect equipment and other property;

   •   determining whether the Department used hunting and fishing license revenues solely for
       the administration of the Department; and

   •   determining whether the State passed required legislation assenting to the provisions of
       the Acts.

We also identified the internal controls over transactions recorded in the labor and license fee
accounting systems and tested their operation and reliability. Based on the results of initial
assessments, we assigned a level of risk to these systems and selected a judgmental sample of
transactions recorded in these systems for testing. We did not project the results of the tests to
the total population of recorded transactions or evaluate the economy, efficiency, or effectiveness
of Department operations.

Prior Audit Coverage

On September 16, 2004, we issued our audit report, "U.S. Fish and Wildlife Service Federal
Assistance Grants Administered by the State of Vermont, Agency of Natural Resources,
Department of Fish and Wildlife, from July 1, 2001, through June 30, 2003" (No. R-GR-FWS-
0005-2004.) We followed up on all recommendations in the report and found that the
Department of the Interior, Office of Policy, Management, and Budget (PMB) considers three
recommendations resolved but not implemented. One recommendation relates to inadequate
controls over equipment and the other two pertain to the accuracy of the Department’s land
records. As discussed below, we found the Department has not yet addressed the
recommendation on equipment. PMB has not received documentation to demonstrate
implementation of the recommendations on land records. However, we found during our audit
that the State’s land records were adequate to ensure land transactions were properly recorded,
that the land management inventory and records system identified real property purchased with
license revenues and Program funds, and that the percentage of Program interest in land


                                              3
purchases was documented. PMB must receive documentation on implementation of the prior
audits’ recommendations pertaining to land before it can close those recommendations.

We reviewed the State of Vermont Single Audit Reports for SFYs 2005 and 2006 issued by the
State Auditor. The Department’s operations were considered a major program in both years and
selected for audit in SFY2006 but not SFY2005. The audits contained a finding related to the
Department’s suspension and debarment contracting requirements that are applicable to major
federal programs. Our tests determined that the Department’s vendors were not suspended or
debarred.




                                            4
                                               Results of Audit

Audit Summary
We found that the Department complied, in general, with applicable grant agreement provisions
and requirements of the Acts, regulations, and FWS guidance. However, we identified several
conditions that resulted in the findings listed below, including questioned costs totaling $8,809.
We discuss the findings in more detail in the Findings and Recommendations section.

         Questioned Costs. The Department claimed expenditures for which it lacked adequate
         supporting documentation.

         Expenses Charged as Both Direct and Indirect Costs. The Department used some
         costs it recovered as direct costs in the calculation used to determine its indirect cost rate.

         Inadequate Controls Over Equipment. We identified equipment that was not tagged
         and could not be located.

         Incomplete Assent Legislation. The State has not passed legislation that specifically
         assents to the provisions of the Acts, as required.

         Potential Misuse of Department Funds. The Department pays the expenses of a
         general counsel employee who is under the organizational control of the Vermont Natural
         Resources Agency General Counsel Office. This could represent a misuse of Department
         funds.

Findings and Recommendations

A.       Questioned Costs — $8,809

         Federal regulations require grantees to support costs claimed with adequate
         documentation. To test the Department’s compliance with this and other regulations
         pertaining to costs, we reviewed 149 transactions worth $774,198.2 The Department
         could not provide adequate documentation for two of those expenditures, for which they
         were reimbursed $8,809. We are questioning these costs.

         The Code of Federal Regulations (Appendix A, subsection C of 2 C.F.R § 225, Basic
         Guidelines) defines allowable costs as necessary, reasonable, allocable, and authorized or
         not prohibited. The regulation also requires grantees to adequately document
         expenditures and to treat them consistently (as a direct or indirect cost). Under 50 C.F.R.
         § 80.15, Allowable Costs, grantees must support costs by source documents or other
2
  The Department expended approximately $11.3 million in SFYs 2005 and 2006 in non-payroll expenditures using license
revenue funds and Program grant funds. We selected a sample of 149 transactions based on the largest amounts, type of
transaction, and non-repeated vendor names.


                                                          5
records to substantiate the application of funds. Also, 50 C.F.R. § 80.14, Application of
Federal Aid Funds, requires States to use grant funds only for activities or purposes the
regional director approves. If otherwise applied, the grantee must replace such funds or
the State becomes ineligible to participate in the Program.

The Department should ensure it maintains adequate documentation for all costs.
Adequate documentation includes authorizing documents such as requisitions, purchase
orders, contracts, receiving reports or record of receipt, invoices, and payment approval.
Maintaining such documentation will help the State and FWS ensure that expenditures
support grant purposes, were reasonable and necessary, and were in compliance with
State and federal laws and regulations.

Department officials told us that they do maintain documentation for expenses of
Program funds, but could not locate the support for the two items.

Recommendation

We recommend that FWS work with the Department to resolve the unsupported costs of
$8,809.

Department Response

Department officials stated they are certain that at the time they requested reimbursement,
supporting documentation was available. They also indicated that they do have the
purchase requisition—which has federal coding on it—for one of the purchases. Finally,
they added that in the packaging of the documents for retention in the State's Records
Center, the two invoices in question were misfiled and cannot be located.

FWS Response

FWS Region 5 officials stated that they reviewed the State's response and concur with the
actions taken or proposed to address the recommendations. The Department’s response
will be considered in the preparation of the corrective action plan.

OIG Comments

Additional information is needed in the corrective action plan, including:

    •   the actions taken or planned to resolve the questioned costs,

    •   a targeted completion date,

    •   titles of officials responsible for implementation, and

    •   verification that FWS headquarters officials reviewed and approved of actions
        taken by the Department.

                                       6
B.   Expenses Charged as Both Direct and Indirect Costs

     Indirect costs are those costs, such as administrative staff time, that cannot be charged
     directly to a project or program. To determine the equitable allocation of indirect costs
     across projects and programs, an indirect cost rate is used. The rate is developed, in part,
     based on a pool of expenses. The Department charged $5,134 and recovered $3,850
     through federal grants in 2005 as direct costs and then included the same costs in the pool
     of indirect expenses that it used to calculate the indirect cost rate for 2007. The
     Department may not be reimbursed for the same expenditure as both a direct and indirect
     cost. The Department’s treatment of the same costs as both direct and indirect costs
     resulted in a higher indirect cost rate and recovery of excess indirect costs.

     Appendix A, subsection C.1 of 2 C.F.R. § 225, Factors Affecting Allowability of Costs,
     states that for a grant cost to be allowable, it must be treated consistently. A cost may not
     be assigned to a federal award as a direct cost if any other cost incurred for the same
     purpose in like circumstances has been allocated to the federal award as an indirect cost.

     The Department uses certain accounts in its accounting system to record expenses that
     are part of the indirect cost pool. Department personnel told us that when they calculated
     the total indirect costs to use in the calculation of the indirect cost rate, they removed
     costs that they charged as direct costs to the grants. However, they did not remove the
     $5,134 ($3,850 reimbursed by grants) already charged as direct costs from the total of
     indirect costs. We determined, based on information provided by Department personnel,
     that the inclusion of these costs in the calculation of the indirect cost rate did not have a
     significant dollar impact on the indirect costs recovered. However, we note it is
     important for the Department to implement procedures which ensure costs recovered as
     direct costs are not included in the calculation of the indirect cost rate.

     Recommendation

     We recommend the FWS require the Department to establish controls and document the
     steps taken to ensure it does not include costs recovered as direct costs in its indirect cost
     rate calculation.

     Department Response

     Department officials indicated the Agency of Natural Resources modified its procedure to
     require a review of all charges included in the indirect rate calculation. The review will
     help to ensure no costs are charged as both direct and indirect costs.

     FWS Response

     FWS Region 5 officials stated that they reviewed the State's response and concur with the
     actions taken or proposed to address the recommendation. The Department’s response
     will be considered in the preparation of the corrective action plan.


                                             7
         OIG Comments

         The Department indicated actions have been taken and FWS Region 5 officials indicated
         that they concur with these actions, but additional information is needed in the corrective
         action plan, including:

              •   documentation of the actions taken or planned,

              •   a targeted completion date,

              •   titles of officials responsible for implementation, and

              •   verification that FWS headquarters officials reviewed and approved of actions
                  taken by the Department.

C.       Inadequate Controls Over Equipment

         Federal regulations require each State to maintain control over its fixed assets
         (equipment). To test the Department’s compliance with federal and associated State
         requirements, we reviewed the Department’s equipment inventory and selected 29 items
         acquired since November 24, 2003. The items were valued at $103,159 in the Asset
         Management Module, a subsystem of the State’s financial system VISION.3

         In our review of the equipment inventory, we found that it does not indicate a source of
         funding for equipment acquired prior to November 24, 2003. We also found the
         Department did not adequately control fixed assets (equipment) purchased with Program
         funds and license revenue. Of the items tested, only ten were in use at locations
         identified by the Asset Management Module, had identification tags, and were identified
         as items purchased with Program funds. We also found that:

              •   6 items did not have identification tags and

              •   12 listed items of inventory, including 9 computers, could not be located.

         The prior audit report on FWS grants awarded to the Department (R-GR-FWS-0005-
         2004) also identified problems with controls over equipment.

         Federal regulations (50 C.F.R. § 80.19) require each State to maintain complete property
         records and to follow the records requirements in the Federal Aid Manual and OMB
         Circular A–102. Under 50 C.F.R. § 80.18(c) and the FWS Manual (522 FW 1.16), the
         Department must control all assets and assure they serve the purpose for which acquired.
         Under 43 C.F.R. § 12.72, each State must follow its own laws and procedures when
         managing equipment. In implementing the requirements of GASB (Government
         Accounting Standards Board) 34, Vermont State Bulletin No. 1, Asset Management
3
 We selected all Department property items that the Asset Management Module identified as having been acquired with Program
grant funds and license revenue during SFYs 2005 and 2006.

                                                          8
Policy, item V, General Guidelines for Adding Assets to VISION, the State must record
acquisitions of fixed assets in the Asset Management Module. Departments are
responsible for conducting an annual physical inventory.

Department officials told us that they are in the
process of implementing a corrective action to        Example of Adequate Controls
address our prior audit’s recommendation, but         Some States have implemented
have not yet completed the actions. They also         systems which account for all
stated that of the nine missing computers, three      equipment acquired. The systems
were presumed to be in use the field. In              include current and retired equipment
addition, Department officials told us they           and include all equipment of a
                                                      sensitive nature, such as items which
maintained a list identifying to whom they            are vulnerable to theft. Such systems
issued computer equipment. Department                 help to ensure control of all assets.
officials also told us that the computers are
worth less than $5,000—the minimum
threshold to be considered an “asset,” but that they recognize the need to be more
accountable for equipment.

Inadequate controls over equipment increases the risk that the Department could lose
control of equipment.

We repeat one open recommendation from our prior audit report. The Department has
not yet completed actions to implement this recommendation. Implementation of the
repeat recommendation will be tracked under the resolution process for the prior audit
report (No. R-GR-FWS-0009-2004).

Repeat Recommendation

We recommend that the FWS assist the Department in creating an up-to-date inventory of
personal property that identifies the funding source as Federal Assistance, license fee, or
other (Recommendation D in the prior audit report).

New Recommendation

We recommend that FWS require the Department to improve control over equipment by
tagging items that currently do not have tags, recording the three items on site in the
inventory, and locating the nine missing computers.

Department Response

Department officials agreed that they were still in the process of implementing the prior
audit recommendation and that seven equipment items had no identification tags.
Department officials indicated that all items but one computer have been located and that
they are working with Agency of Natural Resources Information Technology staff to
ensure computers purchased with license revenue or federal funds are tagged
appropriately.

                                        9
     FWS Response

     FWS Region 5 officials stated that they reviewed the State's response and concur with the
     actions taken or proposed to address the recommendation and finding in this report. The
     Department’s response will be considered in the preparation of the corrective action plan.

     OIG Comments

     Department officials indicated that action has been taken and FWS Region 5 officials
     indicated that they concurred with the actions taken, but additional information is needed
     in the corrective action, including:

        •   documentation of the actions taken or planned,

        •   targeted completion dates,

        •   the titles of the officials responsible for implementation, and

        •   verification that FWS headquarters officials reviewed and approved of actions
            taken by the Department.

D.   Incomplete Assent Legislation

     The State may be in violation of the requirement to pass legislation assenting to the
     provisions of the Acts. Under 50 C.F.R. § 80.3, to be eligible to participate in the
     benefits of the Program, each State must pass legislation “which assents to the provisions
     of the Acts.” The C.F.R. also requires each State to pass laws to conserve fish and
     wildlife, including laws that prohibit the diversion of hunting and fishing license fees to
     purposes other than administration of the fish and wildlife agency. The State passed
     required legislation prohibiting the use of license revenue for unallowable purposes, but it
     has not enacted required legislation that assents to the provisions of the Acts.
     The lack of legislation specifically assenting to the provisions of the Acts could result in
     the State of Vermont not being entitled to receive funds apportioned under the Acts.

     Department officials believe that their current assent legislation is stronger than the
     legislation suggested and provided some of the relevant statutes as examples. However,
     they did tell us they understand the potential issue with the lack of legislative language
     that specifically assents to the provisions of the Acts.

     Recommendation

     We recommend that FWS obtain a Solicitor’s opinion to determine whether the State’s
     existing legislation is adequate to meet the requirements of 50 C.F.R. § 80.3 or require
     the Department to work with the State legislature to amend existing legislation so that it
     specifically assents to the provisions of the Acts.


                                            10
     Department Response

     Department officials agreed to have FWS obtain a Solicitor’s opinion regarding the
     adequacy of Vermont's assent legislation. However, Department officials indicated that
     they believe their current assent legislation is stronger than what is required, because it
     applies to all of its funds and not just those awarded under the Program.

     FWS Response

     FWS Region 5 officials stated they reviewed the State's response and concur with the
     actions taken or proposed to address the recommendation and finding in this report. The
     Department’s response will be considered in the preparation of the corrective action plan.

     OIG Comments

     Department officials indicated they are willing to have FWS obtain a Solicitor’s opinion
     and FWS Region 5 officials concurred with the actions planned, but additional
     information is needed in the corrective action, including:

         •   the outcome of or actions taken to obtain a Solicitor’s opinion on the adequacy of
             the Department’s current assent legislation,

         •   a targeted completion date,

         •   titles of officials responsible for implementation, and

         • verification that FWS headquarters officials reviewed and approved of actions
           taken by the Department.

E.   Potential Misuse of Department Funds

     We found during our audit that the Department funded the costs of a general counsel
     employee who was under the organizational control of the Vermont Natural Resources
     Agency Legal Division (Agency Legal Division). Expense payments for the employee
     were authorized by the Agency Legal Division. The Department did not retain control
     over the activities performed by the employee or the application of the resources
     pertaining to expenses incurred for the employee’s work. This use of Department funds
     may violate legislation the State passed to comply with provisions of the Acts that restrict
     the use of Department funds.

     The State passed legislation prohibiting the diversion of license fees, as required under 50
     C.F.R. § 80.3 (these provisions are described in finding D). This legislation prohibits the
     transfer of wildlife department positions and other components of the agency (3 Vermont
     Statutes Amended § 2824(a), Transfer of personnel and appropriations). Agency officials
     assert they have authority to disburse the funds because the expenditures were paid with
     the Department’s general fund appropriations and that those funds are not subject to

                                            11
           restrictions on the use of license revenue or restrictions placed on Department funds
           under Vermont Statute Title 3 Chapter 51, Section 3 VSA 2824.4 However, Section 10
           Vermont Statutes Amended 41355 states that all money received by the commissioner
           shall be deposited into the State treasury and credited to the fish and wildlife fund and all
           payments from the fund should be authorized by the commissioner.6

           We recognize that the requirements of the Program do not restrict the use of all
           Department funds. However, to protect license revenue funds and comply with certain
           provisions of the Acts, the State passed legislation that places restrictions not only on the
           use of license revenue, but also additional Department funds. In an effort to achieve
           organizational efficiency and effectiveness, the Agency Legal Division may have
           overlooked the personnel transfer restriction of the State’s legislation. The Department
           may have been in violation of this legislation and may have diverted the restricted funds
           to unallowable purposes, as set forth in its State legislation.

           Recommendation

           We recommend FWS Region 5 officials work with the Department to ensure it is in
           compliance with legislation that restricts the use of Department funds.

           Department Response

           Department officials agreed with the finding and indicated that the Agency of Natural
           Resources transferred this attorney position to the Department. The attorney’s physical
           location is now also in the Department’s office in Waterbury, VT, and the Department’s
           Commissioner signs the attorney’s time sheets and leave slips. Agency staff indicated
           they believe the organizational chart will also be revised to indicate the change. Finally,
           the Department created a new accounting code to which the attorney has been instructed
           to charge time spent on activities that are not grant-related.

           FWS Response

           FWS Region 5 officials stated that FWS reviewed the State's response and concur with
           the actions taken or proposed to address the recommendation. The Department’s
           response will be considered in the preparation of the corrective action plan.

4
  Vermont Statute Title 3 Chapter 51, Section 3 VSA 2824, states: “(a) The secretary with the approval of the governor, may
transfer classified positions, excepting fish and wildlife department positions, between state departments and other components of
the agency, subject only to personnel laws and rules. (b) The secretary, with the approval of the governor, may transfer
appropriations or parts thereof between departments and other components in the agency, consistent with the purposes for which
the appropriations were made, excepting fish and wildlife funds which shall remain separate and intact.”

5
  Vermont Statute Title 10 Chapter 103, Section 10 VSA 4135, states: “(a) All moneys received by the commissioner shall be
deposited into the state treasury and credited to the fish and wildlife fund. (b) All payments by the commissioner from the fish
and wildlife fund shall be disbursed from the state treasury only upon warrants issued by the commissioner of finance and
management, after receipt of proper documentation regarding services rendered and expenses incurred.”

6
    Commissioner of the Department of Fish and Wildlife.


                                                             12
OIG Comments

Department officials indicated they have taken action to address the recommendation and
FWS Region 5 officials indicated that they agree with actions taken, but additional
information is needed in the corrective action, including:

    •   documentation of the actions taken or planned to address the recommendation,

    •   a (targeted) completion date,

    •   titles of officials responsible for implementation, and

    •   verification that FWS headquarters officials reviewed and approved of actions
        taken by the Department.




                                        13
                                                              Appendix 1
                                                                  Page 1 of 2
                  STATE OF VERMONT
            AGENCY OF NATURAL RESOURCES
            FISH AND WILDLIFE DEPARTMENT
       FINANCIAL SUMMARY OF REVIEW COVERAGE
       FROM JULY 1, 2004 THROUGH JUNE 30, 2006

                                               Questioned Costs
Grant Number   Grant Amount Claimed Costs      (Federal Share)
                                                Unsupported
 F-18-D-24         $555,000         $424,155
 F-18-D-25          550,000          473,992
 F-19-E-16          132,861          141,479
 F-19-E-17          172,861          126,233
 F-22-D-42           18,816           31,481
 F-22-D-46          281,277          269,723
 F-22-D-47           19,205           21,033
 F-22-D-48          103,914            8,725
 F-22-D-49          108,560          107,498
 F-22-D-50           32,028           31,481
 F-22-D-51           31,482              192
 F-22-D-52           37,000           38,828
 F-31-D-14        2,436,735        2,596,757         $6,143
 F-31-D-15        2,550,000        2,524,591
 F-34-R-7           112,000          129,075
 F-34-R-8           137,000          125,248
 F-35-R-7           446,377          445,363
 F-35-R-8           553,000          340,963
 F-36-R-7           655,000          597,861
 F-36-R-8           810,000          555,543
 F-100-R-22           5,000            2,331
 F-100-R-23           5,000            3,750
 FW-17-T-31         479,499          659,069
 FW-17-T-32         649,500          643,633
 FW-19-C-14          43,000           75,652
 FW-19-C-15          61,000           61,089
 W-33-R-43           77,258           75,156
 W-33-R-44           77,258           94,273

                              14
                                                                   Appendix 1
                                                                       Page 2 of 2
                     STATE OF VERMONT
               AGENCY OF NATURAL RESOURCES
               FISH AND WILDLIFE DEPARTMENT
          FINANCIAL SUMMARY OF REVIEW COVERAGE
          FROM JULY 1, 2004 THROUGH JUNE 30, 2006
                                                    Questioned Costs
Grant Number    Grant Amount        Claimed Costs   (Federal Share)
                                                     Unsupported
 W-34-R-42          156,000             183,769
 W-34-R-43          203,000             163,517
 W-35-R-37            6,500               6,500
 W-35-R-38            7,000               7,000
 W-37-R-37           34,000              28,914
 W-37-R-38           38,500              36,578
 W-38-R-37           62,000              26,330
 W-38-R-38           67,000              35,688
 W-41-S-33          486,033             392,886
 W-41-S-34          835,716             745,486
 W-41-S-35          136,350             249,596
 W-45-R-25           87,750              79,373
 W-45-R-26           96,525             109,384
 W-46-D-25          400,000             478,972            2,666
 W-46-R-24          515,000             471,711
 W-47-R-12          112,600              68,885
 W-47-R-13          112,600             112,222
 W-51-R-1            41,000              41,045
 Totals          $14,538,205         $13,843,030          $8,809




                               15
                                       Appendix 2
                                         Page 1 of 2


      STATE OF VERMONT
AGENCY OF NATURAL RESOURCES
FISH AND WILDLIFE DEPARTMENT

          SITES VISITED
Vermont Fish and Wildlife Department

             Waterbury


           District Offices

                 Barre
            Essex Junction
               Rutland
             Springfield
            St. Johnsbury


        Fish Culture Stations

              Bald Hill
             Bennington
             Grand Isle
              Roxbury
              Salisbury


     Wildlife Management Areas

            Averys Gore
            Clover Hill
            Lewis Creek
           Ottauquechee
             Plymsbury
           Roy Mountain
           South Stream




               16
                                     Appendix 2
                                       Page 2 of 2


      STATE OF VERMONT
AGENCY OF NATURAL RESOURCES
FISH AND WILDLIFE DEPARTMENT

         SITES VISITED
          Boating Access

    Bald Hill Fish Culture Station
   Bennington Fish Culture Station
          Chipman's Point
          Chittenden Dam
 Colchester Point (Windermere Way)
           Dorothy Smith
             Fort Cassin
           Hoyts Landing
           Lake Dunmore
        Lake Saint Catherine
            Lewis Creek
            Malletts Bay
           North Thetford
           Old Ferry Road
     Roxbury Fish Culture Station
    Salisbury Fish Culture Station
          Saint Albans Bay
              Sand Bar
           Shelburne Bay
   Singing Cedars (George Davis)
  South Slang (Little Otter Creek)




              17
                                                                                Appendix 3


                              STATE OF VERMONT
                        AGENCY OF NATURAL RESOURCES
                        FISH AND WILDLIFE DEPARTMENT

               STATUS OF AUDIT FINDINGS AND RECOMMENDATIONS


  Recommendations                Status                        Actions Required
A, B, C, D, and E       FWS concurs with the        FWS should provide a plan that
                        recommendations, but        identifies the actions taken or planned to
                        additional information is   implement the recommendations,
                        needed as outlined in the   targeted completion date(s), the title of
                        actions required column.    official(s) responsible for
                                                    implementation, and verification that
                                                    FWS officials reviewed and approved of
                                                    actions taken or planned by the State.
                                                    We will refer recommendations not
                                                    implemented at the end of 90 days (after
                                                    September 2, 2008) to the Assistant
                                                    Secretary for Policy, Management and
                                                    Budget for resolution and/or tracking of
                                                    implementation.

Repeat recommendation   Repeat Recommendation       Provide documentation regarding the
under Finding C         D from our prior report     implementation of this recommendation
                        (R-GR-FWS-0009-             to PMB.
                        2004). PMB considers
                        this recommendation
                        resolved but not
                        implemented.




                                          18
  Report Fraud, Waste, Abuse,
     and Mismanagement
          Fraud, waste, and abuse in government
          concerns everyone: Office of Inspector
          General staff, Departmental employees,
            and the general public. We actively
          solicit allegations of any inefficient and
            wasteful practices, fraud, and abuse
          related to Departmental or Insular Area
         programs and operations. You can report
              allegations to us in several ways.




By Mail:          U.S. Department of the Interior
                  Office of Inspector General
                  Mail Stop 5341 MIB
                  1849 C Street, NW
                  Washington, D.C. 20240

By Phone          24-Hour Toll Free               800-424-5081
                  Washington Metro Area           703-487-5435

By Fax            703-487-5402

By Internet       www.doioig.gov/hotline
